Miami Resident Sentenced to 24 Months in Prison for Defrauding the Export-Import Bank
EXPORT-IMPORT BANKof the UNITED STATES
Search
ABOUTUS
NEWS &EVENTS
PRODUCTS
TOOLS
SMALLBUSINESS
Tests
Skip to Main Content
Miami Resident Sentenced to 24 Months in Prison for Defrauding the Export-Import Bank
About Us
80th Anniversary
Who We Are
Leadership
Strategic Partners
Charter and Bylaws
What We Do
Products
Small Business
Special Initiatives
Special Assistance
Key Markets
Key Industries
Success Stories
Export Numbers by State and Congressional District
General Bank Policies
Contact
Ex-Im Bank Headquarters
Regional Export Finance Centers
Small Business Group
Minority and Woman-Owned Businesses
Sub-Saharan Africa
Renewable Energy
Trade Finance
Trade Credit Insurance Division
Working Capital
Project and Structured Finance
Global Business Development
News Media - Communications
Operations and Data Quality
Contracting Services
Library
Freedom of Information Act
Reports
Brochures
Speeches & Testimony
Newsletters
Notices
Newsroom
Careers
Equal Employment Opportunity
Job Opportunities
Benefits
Salary
Diversity
Employee Viewpoint Survey
Resume Format
Pre-Employment Form
Onboarding Forms
Office of Inspector General (OIG)
News & Events
From the Chairman
Fred's Thread
Gallery
News Releases
2014
2013
2012
2011
2010
2009
2008
2007
2006 and Prior
Events
Annual Conferences
Speeches & Testimony
Ex-Im Bank in the News
Board & Credit Committee Meetings
Board Meetings
Credit Committee Minutes
Official Notices and Public Comments
Economic Impact Notices
Newsletters
Newsroom
Products
Special Initiatives
How To Apply
New Products
Working Capital
Application Process
Supply Chain Finance Guarantee Program
Global Credit Express
Export Credit Insurance
Express Insurance
Small Business Insurance
Multi Buyer
Single Buyer
Financial Institution Buyer Credit Insurance
Medium Term
Letter of Credit
Reinsurance
Standard Repayment Terms
Loan Guarantee
Application Process
Renewable Express
Project & Structured Finance
Transportation
Medium-Term Delegated Authority Program (MTDA)
Credit Guarantee Facility
Foreign Currency Guarantee
Financing Fees for Ancillary Services
Standard Repayment Terms
Finance Lease Guarantee
Direct Loan
General Bank Policies
Tools
Online Services
Ex-Im Online
Letter of Interest login
Electronic Compliance Program
Electronic Claim Filing System
Broker Locator
Lender Locator
Applications and Forms
Help Finding a Form
Working Capital Applications and Forms
Export Credit Insurance Applications and Forms
Letter of Interest
Finance Lease Guarantee Applications and Forms
Loan Guarantee & Direct Loan Applications and Forms
Guide for Fillable PDF Forms
Country Limitation Schedule
CLS Historical Reference
Credit Standards
Exposure Fees
Medium-Term Exposure Fee Advice
Long-Term Exposure Fee Advice
Short-Term FIBC Exposure Fee Financing Calculator
Short-Term ELC & ESS Exposure Fee Financing Calculator
Credit Classification Definitions for Non-Financial Institution Risk
Credit Classification Definitions for Financial Institution Risk
Credit Classification and Credit Rating Agency Rating Matrix
Commercial Interest Reference Rates
About CIRR Rates
Prior CIRR Rates
Claims and Asset Management
Credit Administration and Operations
For Brokers
For Lenders
For Buyers
Small Business
Global Access for Small Business
Small Business Customers
Exploring Exporting
Initiating Exporting
Expanding Exporting
FAQ
Brokers and Lenders
Insurance Broker Resources
Bank Resources
Insurance and Loan Products
Express Insurance
Single-Buyer Insurance
Small Business Multi-Buyer Insurance
Global Credit Express
Working Capital Guarantee
Specialized Products
Ex-Im Bank Policies
Requirements and Restrictions
Small Business Defined
Country Limitation Schedule
More Information about Exporting
Credit Reports
Discounting
Exporting Services
Factoring
Letter of Credit vs. Open Account
Trade Credit Insurance
Working Capital Loans and Guarantees
Glossary
Ex-Im Online
Contact a Small Business Specialist
Success Stories
Customer Testimonials
Search
Leave this field empty
Advanced Search
OFFICE OF THE INSPECTOR GENERAL
Advanced Search
You Are Here:
Home >
Office of the Inspector General >
Press Releases >
share this page
::
subscribe
Subscribe OverlayClose
Ex-Im Bank Updates in your Inbox
UPDATE YOUR EXISTING ACCOUNT
To edit your preferences, unsubscribe or change the list to which you subscribe, enter your email address here, and submit this form.  You will not be creating any additional accounts if you already created one.
OIG Press Releases
OIG Reports
OIG Hotline
Whistleblower Protection Ombudsman
What's New Archive
History
OIG Senior Staff
OIG Job Vacancies
Subscribe/Unsubscribe to Email Updates
Contact OIG
Distributed by the Export-Import Bank of the United StatesOn Behalf of the IndependentOffice of Inspector General
MIAMI RESIDENT SENTENCED TO 24 MONTHS IN PRISON FOR DEFRAUDINGTHE EXPORT-IMPORT BANK
Washington DC – December 10, 2010. The Office of Inspector General for the Export-Import Bank of the United States (Ex-Im Bank OIG) announced today that Miami resident Yader A. Padilla, 59, was sentenced to 24 months in prison on December 3, 2010, by the Honorable U.S. District Judge Paul C. Huck in U.S. District Court for the Southern District of Florida. He was sentenced for his role in defrauding the Ex-Im Bank. Padilla had previously pled guilty on July 29, 2010 to a criminal information that charged him with conspiracy to commit wire fraud in a scheme to defraud the Ex-Im Bank of approximately $310,639.
According to court documents and testimony at the plea hearing, from approximately May 2009 through January 2010, Padilla falsely represented his Miami, Florida pharmacy as an exporter of U.S. manufactured pharmaceutical products. Instead of exporting the purported U.S. manufactured pharmaceutical products to South American buyers, Padilla and his co-conspirators misappropriated the money and utilized it for their personal gain. Padilla's loans were obtained from a Florida bank and insured by Ex-Im Bank. Padilla admitted that he and co-conspirators prepared and submitted to the Florida bank and the Ex-Im Bank false loan documents, including commercial invoices, packing lists and bills of lading which falsely reflected that Padilla purchased and shipped approximately $310,639 worth of pharmaceutical products to South American customers.
Padilla was arrested in Miami on May 5, 2010, by special agents of the Ex-Im Bank OIG pursuant to the criminal investigation. Padilla's arrest, conviction and sentencing are part of a larger, ongoing investigation by the Ex-Im OIG into allegations of fraud concerning Padilla and other co-conspirators. In addition to his prison term, Padilla was ordered to serve 36 months supervised release after his confinement. Padilla was also ordered to serve 1,400 hours of community service and pay $215,639 in restitution to the U.S. government.
Ex-Im Bank, an independent federal agency, is the official export credit agency of the United States and issues loan insurance to U.S. exporters that covers extensions of credit to foreign buyers of U.S. goods. The Ex-Im Bank issues a loan insurance policy, which provides that if the foreign borrower defaults on its loan repayments to the lending bank, the Ex-Im Bank will reimburse the amount of the outstanding loan principal and interest to the lending bank.
The scheme was investigated by special agents of the Ex-Im Bank OIG after bank staff referred information concerning the suspicious loan defaults. This case was prosecuted by the Department of Justice Criminal Division's Fraud Section.
Site Map ::
Contact Us ::
Web Site Feedback ::
Accessibility ::
Privacy ::
FOIA ::
E-Gov ::
USA.gov ::
White House ::
RSS
Open Government Initiative ::
No FEAR Act ::
Inspector General ::
exim.gov Linking Policy ::
Competitiveness Reports ::
Ex-Im Online
About Us
+
80th Anniversary
+
Who We Are
+
What We Do
+
General Bank Policies
+
Contact
+
Library
+
Careers
+
Office of Inspector General (OIG)
News & Events
+
From the Chairman
+
News Releases
+
Events
+
Ex-Im Bank in the News
+
Board & Credit Committee Meetings
+
Official Notices and Public Comments
+
Economic Impact Notices
+
Newsletters
+
Newsroom
Products
+
Special Initiatives
+
How To Apply
+
New Products
+
Working Capital
+
Supply Chain Finance Guarantee Program
+
Global Credit Express
+
Export Credit Insurance
+
Loan Guarantee
+
Finance Lease Guarantee
+
Direct Loan
+
General Bank Policies
Tools
+
Online Services
+
Broker Locator
+
Lender Locator
+
Applications and Forms
+
Country Limitation Schedule
+
Credit Standards
+
Exposure Fees
+
Commercial Interest Reference Rates
+
Claims and Asset Management
+
Credit Administration and Operations
+
For Brokers
+
For Lenders
+
For Buyers
Small Business
+
Global Access for Small Business
+
Small Business Customers
+
Brokers and Lenders
+
Insurance and Loan Products
+
Ex-Im Bank Policies
+
More Information about Exporting
+
Glossary
+
Ex-Im Online
+
Contact a Small Business Specialist
+
Success Stories
+
Customer Testimonials
back to top